 Criminal
 I nvestigative
 Policy &
 Oversight
 Evaluation of Defense Criminal Investigative Organization
         Policies and Procedures for Investigating
              Allegations of Agent Misconduct
Report Number: CIPO2001S002                     October 20, 2000




              Office of the Inspector General
                  Department of Defense
                        Additional Information and Copies
This report was prepared by the Oversight Directorate, Office of the Deputy Assistant Inspector General
for Criminal Investigative Policy and Oversight, Office of the Inspector General, Department of
Defense. If you have questions on this evaluation or want additional copies of the Final report, contact
Dr. Charles McDowell, Program Director, at (703) 604-8769 (DSN 664-8769) or Ms. Phyllis Brown,
Project Manager, at (703) 604-8810 (DSN 664-8810).


Defense Hotline
To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-9098; by sending an
electronic message to Hotline@dodig.osd.mil; or by writing to the Defense Hotline, The Pentagon,
Washington, DC 20301-1900. The identity of each writer and caller is fully protected.




Acronyms Used in This Report

AFOSI                 Air Force Office of Special Investigations
AFOSII                Air Force Office of Special Investigations Instruction
AFOSI/IGQ             AFOSI, IG (Inquiries and Complaints Division)
AR                    Army Regulation
ARB                   Accreditation Review Board
ATF                   Bureau of Alcohol, Tobacco, and Firearms
CIDR                  Criminal Investigation Division Regulation
CALEA                 Commission on Accreditation for Law Enforcement Agencies
DEA                   Drug Enforcement Administration
DCIO                  Defense Criminal Investigative Organization
DCIS                  Defense Criminal Investigative Service
FBI                   Federal Bureau of Investigation
GAO                   U.S. General Accounting Office
IPI                   Internal Personnel Inquiry
MCIO                  Military Criminal Investigation Organization
NAPA                  National Academy of Public Administration
NCIS                  Naval Criminal Investigative Service
OPR                   Office of Professional Responsibility
PCIE                  President’s Council on Integrity and Efficiency
PRD                   Program Review Directorate
SAARB                 Special Agent Administrative Review Board
UCMJ                  Uniform Code of Military Justice
USACIDC               U.S. Army Criminal Investigation Command
                                                                        October 20, 2000




MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               DIRECTOR, DEFENSE CRIMINAL INVESTIGATIVE
                 SERVICE


SUBJECT: Report on the Evaluation of Defense Criminal Investigative Organization
         Policies and Procedures for Investigating Allegations of Agent Misconduct
         (Report No. CIPO2001S002)


        We are providing this final report for review and for any additional comment as
appropriate or as requested. We considered management comments on a draft of this
report when preparing the final report.

       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Air Force was responsive to all recommendations. DCIS partially concurred with
Recommendations A.1 and B.2 and nonconcurred with B.1. Our review of DCIS
management comments determined they were responsive to our recommendations. The
Army’s comment regarding Recommendation B.1 was not fully responsive. The Navy
nonconcurred with Recommendations A.2 and B.1 and was partially responsive to
Recommendation B.2. We request the Army provide additional comments on
Recommendation B.1. We request the Navy provide comments to Recommendations
A.2, B.1, and B.2. Comments are to be submitted by December 20, 2000.

        We appreciate the courtesies extended to our staff. For additional information on
this report, please contact Dr. Charles P. McDowell, Director, Oversight Directorate, at
(703) 604-8769 (DSN 664-8769) (cmcdowell@dodig.osd.mil) or Ms. Terry Hammer at
(703) 604-8704 (DSN 664-8704) (thammer@dodig.osd.mil). See Appendix H for the
report distribution.




                                         Charles W. Beardall
                                  Deputy Assistant Inspector General
                              Criminal Investigative Policy and Oversight
                            Office of the Inspector General, DoD
Report No. CIPO2001S002                                                      October 20, 2000
  (Project No. 9950002B)


        Evaluation of Defense Criminal Investigative
    Organization Policies and Procedures for Investigating
              Allegations of Agent Misconduct

                                  Executive Summary
Introduction. We have completed evaluating how the Defense Criminal Investigative
Organizations (DCIOs)1 act on allegations that a special agent is or has engaged in
misconduct. We announced this evaluation on February 22, 1999, and conducted our
fieldwork during March 1999 through December 1999.

Objectives. Our overall objective was to assess whether the DCIOs have adequate
policies and procedures to govern the internal investigations they conduct when one of
their special agents is accused or suspected of misconduct. This overall objective
included determining:

  • whether the DCIOs have adequate requirements and mechanisms for reporting
misconduct allegations and for conducting appropriate, responsive investigations;

  • whether agent misconduct investigations are conducted in a fair, timely, and
impartial manner;

      •   whether DCIO disciplinary standards are applied consistently; and

   • whether the DCIOs employ feedback from internal affairs investigations in efforts
to prevent future incidents of agent misconduct.

Results. Overall, our evaluation showed that DCIO policies and procedures for agent
misconduct investigations, and the manner in which they execute those investigations, are
effective and consistent with our benchmark criteria. All DCIOs have written policy and
procedures that specifically pertain to investigations into allegations of agent misconduct.
We found that the DCIOs strive to maintain confidence and integrity regarding their
organizations by conducting factual, objective, and thorough investigations. As a whole,
actions based upon these investigations were equitable, and subjects of investigations
were provided due process commensurate with the remedial action proposed.
Furthermore, other positive aspects of agent misconduct oversight and management were
noted. For example, each DCIO agency head is fully engaged in the internal misconduct
case process. Along with their senior managers, the agency heads emphasize the

1
    The DCIOs are the Defense Criminal Investigative Service (DCIS); U.S. Army Criminal Investigation
    Command (USACIDC); the Naval Criminal Investigative Service (NCIS), which serves the Navy and the
    Marine Corps; and the Air Force Office of Special Investigations (AFOSI).

                                                    i
importance of maintaining integrity in their respective organizations and the need to
foster trust through responsive internal investigations. In each DCIO, the headquarters
support staff, field commanders, and supervisors understand their roles in processing
allegations and in preventing agent misconduct. However, we identified some areas
where improvements would be beneficial. The DCIOs need:

   • to develop clear policy, as has been recognized by other Federal criminal
investigative agencies, requiring their employees to report in a timely manner known or
suspected misconduct by special agents (Finding A);

   • to have clear, reasonable, and measurable timeliness standards for each phase of
their agent misconduct investigations from initiation to final action and case closing
(Finding A);

   • to enhance internal management controls to better monitor, analyze, and
disseminate information on agent misconduct cases so as to assist in reducing incidences
of agent misconduct (Finding B).

In addition, while our case reviews validated DCIO adherence to sound policies and
internal guidance overall, we noted some case anomalies and have highlighted them for
DCIO review as appropriate (Appendix F).

Summary of Recommendations. We recommend that the DCIOs develop (or revise)
a Code of Ethics or other regulatory instrument to include a clear, affirmative
requirement that all DCIO personnel who know of or suspect incidents of agent
misconduct report them promptly through proper channels. We also recommend
that the DCIOs review their agent misconduct investigation policies and procedures
and establish standards of timeliness for each phase of these investigations.
Further, the DCIOs should develop a system to record and monitor compliance with
these standards. Finally, we recommend that the DCIOs aggregate and analyze
agent misconduct cases and that they periodically report results of this activity
throughout their respective organizations, specifically highlighting patterns and
trends and offering guidance for their detection and prevention.


Management Comments.

The Army, Navy, and Air Force concurred with the recommendation to develop (or
revise) a Code of Ethics or other regulatory instrument requiring DCIO personnel to
report known or suspected incidents of agent misconduct. DCIS partially concurred
stating it did not have a special Code of Ethics for agents, but agreeing that specific
regulatory guidance is necessary to mandate reporting agent misconduct and that a
revision will be made to its Special Agents Manual.

The Army, Air Force, and DCIS concurred with the recommendation to establish
standards of timeliness for each phase of an investigation through the final action and to
develop a system to record and monitor compliance and performance with those
standards. The Navy nonconcurred stating that the report indicates the NCIS
investigative process is already timely and that additional standards would not effectively
address the efficiency of their process. They further added that NCIS could better use its
time and resources with an ongoing review of its current process to determine whether it
is efficient or in need of improvement.
                                             ii
The Army and Air Force concurred with the recommendation to establish a program at
their headquarters for aggregating and analyzing agent misconduct cases. The Navy and
DCIS nonconcurred. The Navy stated there are too small a number of agent misconduct
cases within the DCIOs to justify semi-annual reporting or for “aggregating and
analyzing.” DCIS stated that they provide patterns of misconduct to employees and
managers during conferences and in-service training sessions and that an additional
“official” program would provide no additional benefit to the agency.

The Army, Navy, and Air Force concurred with the recommendation to publish periodic
reports highlighting patterns and trends on agent misconduct, offering guidance for
detection and prevention, and disseminating those reports within their respective
organizations. DCIS partially concurred stating they provide general misconduct
information in their newsletters; at all senior manager, group manager, and RAC
meetings; and at in-service training sessions. Additional reporting requirements would
provide no additional benefit to the agency.

Although not required to comment, the Office of the Under Secretary of Defense
(Personnel and Readiness) responded stating that they reviewed the draft report and had
no comments.

Evaluation Response. The Air Force and DCIS were responsive to all
recommendations. The Army concurred with the recommendation to establish a program
at their headquarters for aggregating and analyzing all agent misconduct cases but did not
provide comments on how they plan to comply with the recommendation. The Navy
disagreed with the recommendation to establish standards of timeliness and to develop a
system to record and monitor compliance and performance with those standards. The
Navy also disagreed with the recommendation to establish a program at their
headquarters for aggregating and analyzing agent misconduct cases. We request that the
Navy reconsider their position and provide comments on the final report. The Navy
concurred with the recommendation to publish periodic reports on agent misconduct but
provided no comment on how they plan to comply with the recommendation. We request
the Army and the Navy provide comments to the final report by December 20, 2000.

A discussion of management comments can be found in Part II of this report following
the recommendations. The complete text of management comments is found in Part III.




                                            iii
                                          Table of Contents
Executive Summary ...........................................................................................................i
Part I - Introduction.......................................................................................................... 1
         Background ............................................................................................................ 1
         Objectives............................................................................................................... 2
         Evaluation Results.................................................................................................. 3
Part II - Results of Evaluation and Recommendations ................................................. 4
         Background ............................................................................................................ 4
         Reporting Agent Misconduct ................................................................................. 4
         Initiating the Investigative Process ........................................................................ 6
         Completion of the Investigative Process................................................................ 9
         Management Review and Final Action................................................................ 10
         Conclusion ........................................................................................................... 13
         Recommendations, Management Comments, and Evaluation Response ............ 13
         Background .......................................................................................................... 16
         External Standards ............................................................................................... 16
         DCIO Analyses and Reports of Agent Misconduct Cases................................... 17
         Management Controls Designed to Deter Agent Misconduct ............................. 18
         Reporting and Disseminating Agent Misconduct Information ............................ 19
         Conclusion ........................................................................................................... 19
         Recommendations, Management Comments, and Evaluation Response ............ 20
Appendixes
    A. Evaluation Process ............................................................................................... 23
    B. Relevant Prior Reviews........................................................................................ 25
    C. Policies, Procedures, and Regulations Reviewed ................................................ 27
    D. Organizations Visited or Contacted ..................................................................... 30
    E. Benchmark and Reference Agency Profiles ........................................................ 31
    F. DCIO Case Review: Anomalies ......................................................................... 34
    G. Outcome of Investigations (1996 – 1998)............................................................ 36
    H. Report Distribution .............................................................................................. 43
Part III - Management Comments ................................................................................ 45
    Evaluation of Defense Criminal Investigative
Organization Policies and Procedures for Investigating
          Allegations of Agent Misconduct

                         Part I - Introduction
    The reputation of a law enforcement organization rests to a large extent on the
    conduct of its individual officers or special agents. To maintain high professional
    standards, all allegations of agent misconduct must be scrupulously, fairly, and
    promptly investigated. Further, management review and actions based on these
    investigations must be appropriate and responsive. For purposes of this
    evaluation, “agent misconduct” refers to conduct by special agents of the DCIOs
    that may have violated the following: Federal and non-Federal criminal statutes,
    including the Uniform Code of Military Justice (UCMJ); DoD Directive 5500.7,
    “Standards of Conduct,” as amended on November 2, 1994, and the references
    cited therein; and Military Department and DoD Component-specific regulations
    and rules on conduct, including the specific policies and standards established by
    the DCIOs to govern the comportment of their employees.

    Within the statutes, regulations, and other guidance that govern agent behavior
    two broad categories emerge which may result in an internal investigation. The
    first involves non-criminal misconduct. These matters are generally, but not
    always, investigated and addressed in accordance with personnel regulations. The
    second category involves criminal misconduct. These matters are generally
    investigated and may be prosecuted under Federal, state, or local law if they
    involve a civilian agent, or under the UCMJ if they involve a military agent. In
    addition to prosecution, these cases may also involve disciplinary actions taken in
    accordance with personnel regulations. For example, if a special agent charged
    with upholding Federal law commits a crime, the agent may be prosecuted under
    the governing Federal, state, or local law. Depending on the nature and extent of
    the crime and other considerations, including any mitigating circumstances, the
    agent could also be disciplined in accordance with personnel standards, possibly
    up to removal from Federal employment.


Background
    As is typical of most medium-sized to large law enforcement organizations, the
    DCIOs have an “internal affairs” organizational element that is responsible for
    either investigating allegations of agent misconduct or for managing those
    investigations. They also have policies, procedures, and processes to control and
    guide their investigations and disciplinary decisions.

    Defense Criminal Investigative Service (DCIS): Headquartered in Arlington,
    Virginia, DCIS is the IG, DoD, criminal investigative arm. DCIS investigates
    allegations of criminal, civil, and administrative violations involving DoD
    contract and procurement fraud, antitrust violations, bribery, corruption, large-
                                         1
     scale thefts of Government property, and health care fraud. DCIS employs
     approximately 350 civilian special agents who are assigned to 6 major field
     offices, 23 resident agencies, 18 post of duty offices, and 1 day office, throughout
     the continental United States and offices in Hawaii and Wiesbaden, Germany.
     The DoD Hotline, which is one source for receiving allegations regarding agent
     misconduct, is a component of DCIS Headquarters.

     U.S. Army Criminal Investigation Command (USACIDC): Headquartered at
     Ft. Belvoir, Virginia, USACIDC is responsible for investigating felony-level
     crimes in which the Army has an interest. USACIDC’s principal mission is to
     provide worldwide criminal investigative support to the Army. It also conducts
     protective service operations, provides forensic laboratory support for its own
     investigations (and for other Federal agencies), and maintains the repository for
     the Army’s crime records. USACIDC is organized into six major subordinate
     organizations: the four Military Police Groups; the U.S. Army Criminal
     Investigation Laboratory; and the U.S. Army Crime Records Center. For Fiscal
     Year 1998, USACIDC was authorized 1,534 military and civilian members. In
     FY 98, this manning included 795 special agents, 343 warrant officers, 350 non-
     commissioned officers, and 102 civilians.

     Naval Criminal Investigative Service (NCIS): Headquartered at the
     Washington Navy Yard, Washington, D.C., NCIS is responsible for conducting
     felony-level criminal and counterintelligence investigations for the Department of
     the Navy. NCIS special agents are stationed at approximately 150 locations
     around the world, as well as on aircraft carriers and some other major combatant
     vessels. NCIS has 1637 authorized billets. As of January 1999, NCIS had
     854 civilian special agents, 40 Marine Corps Criminal Investigation Division
     special agents, and 6 Marine Corps counterintelligence special agents, for a total
     agent force of 900.

     Air Force Office of Special Investigations (AFOSI): Headquartered at
     Andrews Air Force Base, Maryland, AFOSI is an Air Force field-operating
     agency with responsibilities that include investigating criminal, fraud, and
     counterintelligence matters that may threaten Air Force resources. The agency is
     comprised of 8 regional offices, 6 overseas squadrons, 1 CONUS (Washington
     Field Office), and more than 160 installation-level detachments. AFOSI has
     approximately 2,000 personnel, about 1,300 of whom are special agents. Of the
     number of agents, 1,050 are active duty military personnel and 250 are civilians in
     the GS-1811 job series.


Objectives
     Our overall objective for this evaluation was to ascertain whether the DCIOs have
     adequate policies and procedures for investigating allegations of agent
     misconduct and whether those investigations are conducted and resolved in an
     appropriate and timely manner. Our specific objectives included:

        •    identifying the mechanisms and requirements for reporting allegations of
             agent misconduct;
        •    identifying the mechanisms and requirements for initiating and conducting
             appropriate, responsive investigations;
                                          2
        •   determining if internal investigations are conducted in a fair, timely, and
            impartial manner;
        •   determining if disciplinary standards are applied consistently; and,
        •   assessing DCIO programs for preventing agent misconduct.

Evaluation Results
     All DCIOs consider the integrity of their organizations paramount and view
     allegations of agent misconduct and the investigation of those allegations as
     serious, high priority matters. We found the leadership of the DCIOs actively
     involved in supervising and monitoring the efficacy and probity of this
     investigative area.

     All DCIOs have written policy and procedures that specifically pertain to
     investigations into allegations of agent misconduct. Policy is written to apply to
     both military and civilian special agents. Each DCIO has a designated
     organizational entity responsible for managing and/or conducting these
     investigations.

     Overall, our evaluation showed that DCIO policies and procedures for misconduct
     investigations, and the manner in which they execute those investigations, are
     effective and consistent with our benchmark criteria. We found that actions based
     upon the investigations were equitable, and subjects of investigations were
     provided due process commensurate with the remedial action proposed.

     We did, however, identify some areas where improvements would be beneficial:

        •   Not all DCIOs have formal policy, as found in other Federal criminal
            investigative agencies, specifically requiring DCIO personnel to report
            suspected violations of law, regulation, or standards of conduct by agents.
            We believe such a policy is essential. However, we did not discover any
            instances where DCIO personnel failed to report misconduct by other
            DCIO personnel.
        •   The DCIOs all have formal requirements and policies for initiating,
            conducting, and finalizing investigations into allegations of agent
            misconduct. However, we found the need (varying among the DCIOs) for
            better defined and managed timeliness standards for all phases of the agent
            misconduct investigative process.
        •   We also found that the development of metrics for agent misconduct
            processes; the improved monitoring of cases through data collection and
            analysis; and the dissemination of information on such aspects as patterns
            and trends could lead to enhanced management controls and awareness.




                                          3
    Evaluation of Defense Criminal Investigative
Organization Policies and Procedures for Investigating
          Allegations of Agent Misconduct

 Part II - Results of Evaluation and Recommendations

A.   Policies for Reporting, Initiating, Conducting, and
     Resolving Agent Misconduct Investigations
     Acts of misconduct by law enforcement agents which are not uncovered or
     investigated efficiently and effectively are likely to negatively affect the public
     standing of an investigative organization as well as the morale, productivity, and
     well-being of its members. Although the DCIOs have policies and procedures
     that outline the requirements for initiating, conducting, and resolving
     investigations of alleged agent misconduct, some do not require their personnel to
     report known or suspected acts of this type of misconduct or do not clearly
     articulate that requirement. Also, clear time standards are not always established
     for completing each phase of these investigations. Moreover, systems are not in
     place to capture and analyze the time expended in each phase so as to permit
     assessment of the performance of these important inquiries.


Background
     We examined the DCIOs’ respective policies to identify guidance and
     management controls for ensuring that allegations of agent misconduct would be
     reported, and that when appropriate, an investigation would be promptly initiated,
     conducted, and resolved, including remedial action if appropriate. We also
     reviewed a sample of closed reports of investigation to ascertain compliance with
     those standards and how that compliance was monitored and measured.


Reporting Agent Misconduct
     The need to develop a clear policy on reporting possible misconduct by special
     agents has been recognized by other Federal investigative agencies, and those we
     benchmarked have adopted policies that require reporting by their employees.
     For example, the Bureau of Alcohol, Tobacco and Firearms (ATF) of the
     Department of the Treasury has a policy that requires its employees to report “any
     allegation or information indicating a violation of the standards of conduct set
     forth in the Government-wide standards of conduct or any additional Department
     of Treasury or Bureau rules, or criminal conduct. . . .”2 The Drug Enforcement
     2
         ATF Order 8610.1, “Integrity and Other Investigations,” Chapter C, “Reporting Allegations of
         Misconduct, Attempted Bribery, and Discharge of Firearms,” paragraph 21.a, page 7,
                                                  4
Administration (DEA), in its “Inspectors’ Handbook,” states that, “[i]t is the duty
of each DEA employee to report all allegations, complaints, or information which
indicate the possible involvement of a DEA employee in any activity or situation
that may be illegal, improper, or a violation of DEA’s Standards of Conduct.”3
The Federal Bureau of Investigation (FBI) has explicit policy regarding its
employees’ duty to report misconduct.
                It is imperative that any information pertaining to allegations of
                misconduct or improper performance of duty coming to the attention of
                any Bureau employee be promptly and fully reported to FBIHQ, and it
                is the continuing responsibility of Bureau officials to see to it that the
                employees under their supervision are properly indoctrinated regarding
                this requirement so that they not only will fully understand it but will
                comply with it.4

DCIS: DCIS uses a centralized process for reporting allegations of agent
misconduct. Allegations of misconduct involving DCIS agents are to be reported
to the Office of the Assistant Inspector General for Investigations. All DCIS
“internal inquiries” are controlled at DCIS Headquarters by the Program Review
Directorate (PRD) and are normally conducted by PRD.

DCIS does not have a Code of Ethics for special agents, but has general
regulatory language that requires the reporting of information alleging or
indicating involvement OAIG-INV personnel in misconduct to the Program
Review Directorate.5 That guidance could be worded in more specific terms to
ensure the clear understanding of the individual responsibility to report
misconduct. DCIS also relies, as do all other DoD agencies, on general DoD
rules of conduct as set out in DoD Directive 5500.7, which prescribes standards of
ethical conduct pertaining to all DoD employees.

USACIDC: USACIDC is unique among the DCIOs in that until February 19996
it followed a decentralized process for reporting and investigating allegations of
agent misconduct. Previously, only conduct affecting the accreditation7 of an
agent was reported to HQ USACIDC. However, since February 1999, all
allegations of agent misconduct are required to be reported to HQ USACIDC.
The Accreditation Branch, HQ USACIDC, is the proponent and lead staff agency


    June 11, 1997.
3
    DEA “Inspectors Handbook,” page 2, September 1996.
4
    Federal Bureau of Investigation, “Manual of Administrative Operations and Procedures,” Section
    13, “Disciplinary Procedures,” section 13-1(2), undated.
5
    DCIS “Special Agent’s Manual,” Chapter 34, “Internal Inquiries,” November 1994, Section
    3403.2.
6
     HQ, USACIDC, published a revision to CIDR 195-1, Chapter 19, “Agent Misconduct,
    Substandard Performance and Accreditation Review Procedures, and Criminal Investigation
    Accreditation File (CIAF),” February 18, 1999, which revamps overall accreditation review
    procedures and filing requirements, and clarifies the filing of documentation in the CIAF.
7
    In this instance, defined as the certification of a person’s status as special agent by meeting
    certain criteria.

                                                5
     for the management and headquarters coordination of agent accreditation actions
     involving misconduct.

     USACIDC does not have a formal Code of Ethics nor other particular instructions
     directing its personnel to report acts of agent misconduct. Criminal Investigation
     Division Regulation (CIDR) 195-1, “Criminal Investigation Operational
     Procedures,” October 1, 1994, refers the reader to Army Regulation (AR) 195-3,
     “Acceptance, Accreditation, and Release of United States Army Criminal
     Investigation Command Personnel,” April 22, 1987, which admonishes all
     individuals assigned to USACIDC to maintain the highest standards of personal
     conduct and professionalism, but does not specifically require that members of
     USACIDC report knowledge of possible agent misconduct.

     NCIS: NCIS’ internal inquiry process is centralized, with misconduct issues
     reported to and conducted under the auspices of the Inspection Department at
     NCIS Headquarters.

     Closely following the FBI model, paragraph 18-2.5, NCIS-1,8 “Manual for
     Administration,” May 1996, states, “It is imperative that any information
     pertaining to allegations of misconduct or deficient performance coming to the
     attention of any NCIS employee be promptly and fully reported to the Assistant
     Director for Inspections (0006) via the employee’s chain of command . . . .”
     While we view this as a clear and creditable mandate, we would restate the
     sentence such that the word “imperative” will not be misconstrued in this instance
     as meaning “important,” rather than “mandatory.”9 The policy is effectively
     strengthened by additional language that makes it the responsibility of supervisors
     to ensure employees “fully understand” and “comply” with the requirement.

     AFOSI: AFOSI follows a centralized process by reporting all agent misconduct
     issues to HQ AFOSI. AFOSI has published its “AFOSI Code of Conduct and
     Moral Standards,” AFOSI Instruction (AFOSII) 36-2901, November 12, 1996.
     The Code enumerates seven specific expectations of its personnel, but does not
     include responsibility for reporting acts of misconduct.


Initiating the Investigative Process
     The President’s Council on Integrity and Efficiency (PCIE) has established
     “quality standards for investigations.” These general standards are offered as
     “guidelines applicable to the investigative efforts conducted by criminal
     investigators working for the Offices of Inspector General affiliated with the
     President’s Council on Integrity and Efficiency and the Executive Council on
     Integrity and Efficiency.” Although these standards do not apply to the military
     criminal investigative organizations (MCIOs), they have general merit in their

     8
          NCIS-1, Chapter 18, “Disciplinary and Adverse Action Procedures,” sets out guidance and
         requirements for handling NCIS employees misconduct issues.
     9
         We suggest, “Any information pertaining to allegations of misconduct or deficient performance
         by NCIS employees which comes to the attention of a NCIS employee must be promptly and
         fully reported by that employee to the Assistant Director for Inspections (0006) via the chain of
         command. . . .”

                                                   6
own right. Throughout the document, the PCIE stresses timeliness in virtually
every aspect (due professional care, planning, execution, reporting) of
investigations. In the Information Management section, the PCIE recommends
guidelines be established for case initiation and states in part:
             Case Initiation – Establish guidelines, including the level of the
             approving authority, for making a determination to initiate an
             investigation or to pursue another course of action. Case assignments
             should be based on the number of investigators, their geographical
             dispersion, level of experience, and pending workloads.10 [emphasis
             added.]

Certainly, timeliness is an important factor to be set out in guidelines for
determining the initiation of an investigation and to be tracked through data
management. Timely investigations and the prompt initiation of these in agent
misconduct cases significantly maintain the public trust in criminal investigative
agencies and sustain the morale and confidence of the agencies’ employees.

Overall, the DCIOs have acceptable formal requirements and policies for
initiating investigations into allegations of agent misconduct. DCIS has a specific
timeliness standard for initiating agent misconduct investigations, and meets that
standard in the majority of these cases. NCIS only has a timeliness standard for
general investigative actions and over half of their agent misconduct cases meet
this goal. Neither USACIDC nor AFOSI have explicit timeliness standards for
initiating agent misconduct investigations. A USACIDC regulation directs the
first commander to “immediately” notify a higher commander and conduct a
preliminary inquiry (to be finished in three working days). AFOSI guidance
speaks only of “immediate” notification in agent misconduct cases,11 but like
NCIS it does have a general standard for initiating investigations (within 2 days of
receiving credible information). Nonetheless, timeliness in case initiation could
not be gauged in either USACIDC or AFOSI because neither had an effective
manner with which to measure compliance for the period covered by our review.

DCIS: The DCIS “Special Agents Manual,” Chapter 34, “Internal Inquiries,”
November 1994, requires that an internal inquiry be initiated within five days
following receipt of an allegation of misconduct. Case initiation requires the
approval of the Deputy Assistant Inspector General for Investigations (DAIG-
INV). We found that of 16 cases initiated during the reporting period,12
10 (63 percent) met this five-day standard. A revision to Chapter 34 of the
Special Agents Manual on July 19, 1999, modified this requirement. The revision

10
  President’s Council on Integrity and Efficiency, Executive Council on Integrity and Efficiency,
 “Quality Standards for Investigations.” Office of the Inspector General, U.S. Office of Personnel
 Management, September 1997, page 13.
11
  We note also that AFOSI Instruction 71-107, “Special Investigations: Processing Investigative
 Matters,” December 9, 1996, Attachment 2, refers to an “item report” for “incidents involving
 AFOSI personnel” and establishes a 48 hour standard for reporting such incidents by e-mail.
12
  Actually, 21 cases were initiated during this period. However, we were not able to determine
 from the files the date the misconduct was reported in four cases, and another case was handled
 outside of the normal DCIS process (see Appendix F).

                                           7
states that, “The determination will be made to initiate an internal inquiry within 5
work days following receipt of the information or allegation (emphasis added).
Of the 16 investigations cited above, by using the revised standard, 12
(75 percent) met the standard. If an internal inquiry is warranted, a case initiation
Form 1 will be prepared within ten calendar days of receipt of allegations.

USACIDC: AR 195-3 states that USACIDC commanders will, “on receipt of
any information regarding occurrences. . . conduct a preliminary inquiry to
determine the source and validity of the information.” Paragraph 19-5 of
CIDR 195-1,13 directs the first commander in the agent’s chain of command to
“immediately” notify the group or region commander and to conduct a
preliminary inquiry to determine whether the allegation is credible. The
preliminary inquiry is to be completed within three working days. We were
unable to determine accurately how well USACIDC met either standard –
immediate notification or completion of the preliminary inquiry within three
working days – because as previously noted USACIDC did not require all agent
misconduct cases to be reported to HQ USACIDC. We, therefore, could not
account for the time elapsed for an unknown number of cases investigated in the
field.

NCIS: NCIS has no specific timeliness standard for initiating internal agent
misconduct investigations. NCIS-1, Chapter 13, “Special Agent Standards and
Performance,” May 1995, Section 13-5, “Internal Personnel Inquiry (IPI)
Investigations,” provides for the initiating and controlling authority and sets forth
reporting requirements and guidance on the scope of investigations. However,
how soon an investigation should be initiated after receipt of an allegation is not
specified. We did, however, find guidance pertaining to general investigative
actions addressed in NCIS-1, Chapter 25, “Report Writing,” Section 25-4,
“Timeliness Requirements,” December 1995. Initiation requirements include one
working day for Priority I cases and three working days for Priority II cases.14 If
we conclude that the timeliness requirements for initiating an IPI are the same as
for any other Priority II NCIS criminal investigation, then the three-day standard
would apply. Of the 65 case files we reviewed, only 57 recorded the date the
misconduct was reported. Of those 57, 38 (67 percent) met the three-day
standard.

AFOSI: AFOSII 71-138, “Investigations of AFOSI Personnel,” outlines the
investigative process from initiation to final action and identifies the office
responsible for supervising, directing, or conducting (if required) all substantive
and internal affairs investigations. This instruction states that Region and
Squadron commanders will immediately notify AFOSI, IG (Inquiries and
Complaints Division) (AFOSI/IGQ), when AFOSI personnel or their family
members become the subject or victim of actual or suspected criminal behavior.
This requirement extends to AFOSI personnel who are believed to be involved in
incidents of professional or ethical misconduct or in violation of regulations or

13
  CIDR 195-1, Chapter 19, “Agent Misconduct, Substandard Performance and Accreditation
 Review Procedures, and Criminal Investigation Accreditation File (CIAF),” February 18, 1999.
14
  Priority I investigations include those offenses that have a major impact at the Seat of
 Government or that involve the operational capability or effectiveness of the Department of the
 Navy. All other investigations are Priority II.

                                          8
     directives. We were unable to determine how timely AFOSI was in initiating an
     investigation or whether notifications were “immediate,” because AFOSI/IGQ
     does not capture the data necessary to make this assessment.


Completion of the Investigative Process
     As previously stated, investigations must be conducted with due diligence, and
     that holds true for agent misconduct investigations which may have even greater
     public scrutiny because they involve the integrity of the law enforcement
     community. DCIS and USACIDC have definite time requirements for
     completing their agent misconduct investigations. In general, DCIS meets its
     standards. We were unable to assess USACIDC’s performance because its
     decentralized system for investigating agent misconduct cases which was in place
     during the period covered by our review precluded gathering necessary data to
     measure compliance with its standards. NCIS does not have an explicit standard
     for completing these investigations but generally completes them in a reasonable
     time. AFOSI has a stringent timeliness standard for completing its agent
     misconduct cases but on average does not attain its goal. Nevertheless, AFOSI’s
     average completion time for these important investigations is highly satisfactory.

     While the PCIE standard states that “all investigations must be conducted and
     reported with due diligence and in a timely manner,”15 there is no objective
     standard that defines either “due diligence” or “timely manner.” It is therefore
     the responsibility of each agency to establish its own reasonable standards for due
     diligence and timeliness as well as its own metrics for measuring compliance.
     The ATF, for example, allows 120 days for the completion of an internal affairs
     investigation, but provides for exceptions as needed. The DEA requires a status
     report of investigative activities at 30-day intervals, and the FBI expects their
     internal affairs investigations to be closed in 180 days or less (with exceptions as
     authorized).

     DCIS: The revision to Chapter 34 of the DCIS “Special Agents Manual,”
     July 19, 1999, requires that “. . . every effort will be made to complete internal
     inquires within 90 days after initiation.” The Director, PRD, must approve
     circumstances requiring delays beyond the 90-day period. The prior standard was
     45 days. We found that of the 20 DCIS cases reviewed during this evaluation, 9
     (42 percent) met the 45 day standard. The average time required by DCIS to
     complete an internal inquiry was 79 days. The average of this small number of
     cases was skewed by 3 cases that took much longer than 45 days (i.e., 166 days,
     176 days, and 364 days) because of case-specific complexities. In any event, the
     90-day standard and DCIS’ actual performance are very satisfactory, especially
     when compared to the FBI and ATF standards.

     USACIDC: CIDR 195-1 specifies that the Commander’s Inquiry will be
     completed in 30 days.16 During the period covered by the evaluation, 26 case

     15
          PCIE, Op Cit, page 7.
     16
       In February and July of 1999, USACIDC revised Chapter 19 of CIDR 195-1 to include time
      standards for additional phases of the review process from the initiation of a preliminary inquiry
      through recommendation for final action by the Accreditation Review Board. See USACIDC
                                                 9
    files (23 military and 3 civilian) were received and processed by the Accreditation
    Branch at Headquarters USACIDC. We reviewed those files, but again could not
    account for the unknown number of cases investigated in the field that were not
    forwarded to HQ USACIDC because regional commanders did not determine that
    decertification of the agent was warranted. Without those case files, we could not
    accurately gauge overall success in meeting the 30-day standard.

    NCIS: NCIS-1, Chapter 13, “Special Agent Standards and Performance,” May
    1995, requires that “all investigations should be completed and reported as
    expeditiously as possible.” Furthermore, timeliness in resolving issues and
    reporting investigative results is emphasized as being a critical, mandatory
    function of supervisors; however, it is not clearly quantified. We reviewed a total
    of 62 NCIS agent misconduct cases which had investigation closing dates (2
    military and 60 civilian). It took an average of 63 days to complete an
    investigation during the period under review, clearly an acceptable performance
    history.

    AFOSI: AFOSII 71-138 states that priority will be given to investigations of
    AFOSI personnel and notes that they should be completed within 30 days. Our
    review of the 1996-1998 case files (a total of 99 cases, 12 with multiple subjects)
    revealed that half of the cases met the standard and that it took an overall average
    of only 58 days to complete an agent misconduct investigation. Despite missing
    its internal benchmark half of the time, AFOSI’s diligence in completing the
    investigative portion of agent misconduct cases is particularly noteworthy.


Management Review and Final Action
    Once an investigation has been completed and a report has been issued, the
    findings must be reviewed. When the report is submitted for review, all
    appropriate administrative and regulatory requirements must be followed and
    should be completed in a timely manner. Each DCIO has procedures for
    reviewing investigations of agent misconduct and taking final action after that
    review. Our evaluation determined that the review procedures provided sufficient
    oversight of the thoroughness and accuracy of the investigation and that the
    subjects of these investigations were afforded due process commensurate with the
    potential outcome of the investigation. However, as with the other stages of the
    agent misconduct investigation process, we believe that clear, reasonable
    timeliness standards should be established, monitored, assessed, and, where
    deficient, corrected.

    DCIS: As is the case for all DCIOs, DCIS procedures for management review
    and action are sound and routinely followed. Upon receipt of a closed report of
    investigation involving an allegation of agent misconduct, the Proposing
    Official17 determines if there is a basis for disciplinary action. If so, the case is


     ALCID Memorandum 004-99, February 18, 1999, and ALCID Memorandum 014-99, July 14,
     1999.
    17
      Proposing Official/Deciding Official: If the subject of an internal inquiry is a Director or
     Special Agent in Charge, the DAIG-INV is the Proposing Official, the Assistant Inspector
     General for Investigations is the Deciding Official. If the subject is an Assistant Special Agent in
                                                10
referred to the Special Agent Administrative Review Board (SAARB) 18 which
then reviews the investigation and makes its recommendation to the Proposing
Official. After the Proposing Official reviews the recommendation of the
SAARB and determines disciplinary action is warranted, he or she forwards it
through the Director of Investigative Support to the Employee Relations Division
of the DoD Inspector General’s Office of Administration and Information
Management, which prepares formal disciplinary actions. The Proposing Official
then delivers the formal notice of intended action to the agent involved. After a
response from the agent, if any, the Deciding Official renders a decision in
accordance with Inspector General Regulation 1400.4, “Disciplinary and Adverse
Action,” December 30, 1994.

Of the 20 DCIS cases we reviewed, 12 were referred to the SAARB for review.
The disposition of these cases can be found at Appendix G.

The DCIS “Special Agents Manual,” Chapter 44, “Disciplinary and Adverse
Action,” March 1995, provides specific timelines for each level of management
review and, when applicable, review by the SAARB. There is no timeliness
standard for the Deciding Official to render a decision on the matter subsequent to
the agent being served a formal notice and given an opportunity to respond.

USACIDC: The post-investigation process for USACIDC agent misconduct
cases appears in Chapter 19 of CIDR 195-1. It specifies the composition and
purpose of USACIDC’s Accreditation Review Board (ARB)19 and sets forth the
procedures for its operation. The ARB provides an agent with the opportunity to
explain why he or she should be retained in USACIDC after the adverse outcome
of an investigation. It also provides the USACIDC Commander with an
independent assessment of whether the agent should be retained. The USACIDC
Commander is the final approval authority on elimination, retention, or probation
of active duty special agents. The Commander’s decision is final and is not
subject to appeal.

As noted earlier, CIDR 195-1, outlines specific time requirements for completing
the preliminary and commander’s inquiries, immediate and Major Subordinate
Commander actions, and for the respondent’s rebuttal. However, after the

 Charge, Assistant Director, Program Director or below, the Special Agent in Charge is the
 Proposing Official and the Deputy Assistant Inspector General for Investigations is the Deciding
 Official.
18
  DCIS “Special Agents Manual,” Chapter 44, “Disciplinary and Adverse Action,” March 1995,
 outlines the procedures and responsibilities of the SAARB. The SAARB consists of the
 Director, Investigative Operations Directorate, as Chair; two Special Agents in Charge
 (appointed for 2 years) and an alternate; and the Director, Investigative Support Directorate, as
 an advisor. The SAARB reviews cases and recommends a course of action to the Proposing
 Official.
19
  The Accreditation Review Board (ARB) consists of 5 members appointed by the Deputy Chief
 of Staff for Support, HQ USACIDC. For officers, the ARB consists of four warrant officer
 agents and at least one commissioned officer, all of whom have an equal vote. For enlisted
 agents, the ARB consists of not less than one commissioned officer, two warrant officers, and
 two NCO members, all with an equal vote. All members must be senior to the respondent CID
 special agent. The President of the Board must be a major or higher in rank.

                                          11
investigation is completed, there are no timeliness standards for reviewing or
adjudicating the investigation. Our review of the 26 cases forwarded to HQ
USACIDC for accreditation determinations discovered a number of cases that
appear to have taken a prolonged period of time from initiation to closing the case
after final action (i.e., 525, 476, 347, 266, and 233 days, with only four of these
involving review by the ARB). With standards in place for all phases of the
process and with a system to capture the time expended in each phase, HQ
USACIDC could accurately and quickly assess performance in these cases and
correct deficiencies discovered or at a minimum be able to account for seemingly
inordinate times (e.g., as in one case where delays resulted from the respondent
seeking relief in Federal court).

NCIS: Allegations of agent misconduct in NCIS are reported to and investigated
under the auspices of the Inspections Department, NCIS Headquarters. After the
closed investigation is delivered to the Inspections Department, the complete file
is sent to the Career Services Department (Career Services) for administrative
review and processing. Career Services coordinates input from other sections
within NCIS, including the legal office, to determine what misconduct is revealed
by the investigation and the range of punishment available.20 Special Agents in
Charge (SACs) of field offices have the opportunity to provide written
recommendations, to include aggravating or mitigating comments, to Career
Services. The head of Career Services also acts as the Proposing Official. It is
the responsibility of the Proposing Official to make a recommendation of
disciplinary action and to send a letter to the agent involved informing him or her
of the proposed action and affording the opportunity to show cause why such an
action should not be implemented. After the agent is given an opportunity to
reply to the allegations and the proposed punishment, it is the agent’s department
head, acting as the Deciding Official, who makes the final decision on
punishment.

The NCIS-1 Manual, Chapter 18, “Disciplinary and Adverse Action Procedures,”
April 30, 1996, does not provide timeliness standards for the review process as a
whole or for each segment, i.e., review by the Inspections Department,
coordination through NCIS Career Services, legal review, and final action by the
Deciding Official.

AFOSI: AFOSI/IGQ is responsible for supervising, monitoring, and performing
quality reviews of agent misconduct investigations. Administrative, corrective, or
disciplinary action can take place at various levels in the organization, depending
on the gravity of the matter and the rank and assignment of the offender. AFOSI
does not have a board to review agent misconduct cases but instead follows a
process of multiple levels of senior officer review. After completing the
investigation, if disciplinary action is appropriate, the region or squadron
commander either recommends or imposes the action to be taken against the
agent. Further, region or squadron commanders provide a suitability

20
   NCIS-1, Section 13-5, “Internal Personnel Inquiry (IPI) Investigations,” Paragraph 13-5.5,
 “Administrative Use of the IPI,” references an entity known as the Special Agent Performance
 Review Board (SAPRB). NCIS Policy Document 93-13, “Personnel,” August 24, 1993,
 eliminated the SAPRB. Although we found that the pertinent sections of NCIS-1 that mention
 the SAPRB are under revision, the SAPRB was eliminated over six years ago, and the change
 that eliminated the SAPRB should have been reflected in the manuals.

                                        12
    determination letter to the AFOSI Commander through AFOSI/IGQ. AFOSI/IGQ
    then submits the recommendation along with the agent’s investigative case file
    through the AFOSI Vice Commander to the AFOSI Commander. The
    Commander is responsible for deciding whether retention or decertification is the
    appropriate final action and has sole discretion over such decisions.

    AFOSII 71-138 does not provide timeliness standards once the investigation is
    completed and the ROI forwarded to AFOSI/IGQ for review and submission
    through the AFOSI Vice Commander to AFOSI Commander for a final
    determination.


Conclusion
    DCIS and NCIS have policies regarding the reporting of agent misconduct. We
    did not discern similar USACIDC or AFOSI policies. Although we did not
    identify instances where DCIO personnel failed to report misconduct by other
    DCIO personnel, we believe it is sound policy to clearly require such reporting, to
    further ensure the integrity of law enforcement organizations.

    The DCIOs all have effective formal requirements and policies for investigating
    allegations of agent misconduct and routinely follow these provisions. However,
    timeliness standards are either not in place for all phases of the agent misconduct
    resolution process or in some portions are imprecise. Additionally, record
    keeping is not uniform for all phases of the process, thus further hampering the
    ability to fully assess compliance and performance in these important cases.


Recommendations, Management Comments, and Evaluation
Response
    A.1. All DCIOs develop (or revise) a Code of Ethics or other regulatory
    instrument that requires DCIO personnel who know of or suspect incidents
    of agent misconduct to report them promptly through proper channels. The
    publication should clearly define the standards of conduct expected of DCIO
    personnel and explicitly address the obligation to report violations of those
    standards.




    DCIS Comments. DCIS partially concurred, stating that DCIS does not have a
    special Code of Ethics for agents, but believes its standard Code of Ethics is
    appropriate. However, DCIS concurred that specific regulatory guidance
    requiring employees to report known or suspected acts of agent misconduct is
    necessary. DCIS highlights that the “Special Agents Manual,” Chapter 34,
    “Internal Inquiries,” Section 3403.2, states, “All information alleging or
    indicating involvement of OAIG-INV personnel in the situations described above
    (paragraph 1), shall be reported immediately to the Program Review Office of the
    Program Review Directorate (PRD).” In what is a constructive effort to

                                         13
underscore the requirement, DCIS indicates it will also add this requirement to
Chapter 1, Organization, Mission, Jurisdiction and Authorities, of the Special
Agent Manual in early FY 2001, and will include a notification in its next
newsletter (October 2000).

Evaluation Response. We accept DCIS’ comments. The manual language is
positive guidance; however, we suggest more explicit language to ensure DCIS
personnel clearly understand their duty to report employee misconduct. We have
reflected the manual provision in the discussion and the conclusion portions of
this finding.

Army Comments. The Army concurred stating that a revision of USACIDC
Regulation 195-1, Criminal Investigation Operational Procedures, will be drafted
in an effort to define the standards of conduct expected of a CID special agent.
CIDR 195-1 will also include a code of ethics consistent with the
recommendations in the draft report and specific language on reporting suspected
agent misconduct. The revision is scheduled for publication in January 2001.

Navy Comments. The Navy concurred.

Air Force Comments. The Air Force concurred stating that AFOSI Instruction
36-2901, “Standards of Professional Conduct for AFOSI Personnel,” will be
revised to meet the requirements of the recommendation. Estimated completion
date is October 1, 2000.

A.2. The DCIOs review their agent misconduct investigation policies and
procedures and establish appropriate standards of timeliness for each phase
of the investigation, review, and final action processes. Concomitantly, the
DCIOs should develop a system to record and monitor compliance and
performance with respect to these standards.

DCIS Comments. DCIS concurred, stating a review of its system disclosed that
they are in compliance with the recommendation. However, a review of the
“Special Agents Manual,” Chapter 44, “Disciplinary Actions,” did not establish a
time standard for the Deciding Official to render a decision. The chapter is being
revised to include direction that the Deciding Official will render a decision
within 30 days after an agent has been given the opportunity to respond. The
chapter is anticipated to be completed by January 2001.

Army Comments. The Army concurred and provided a summary of their process
from receipt of an allegation of agent misconduct through written notification of
the final decision to the subordinate commander. This guidance is published in
CIDR 195-1.

Navy Comments. The Navy nonconcurred stating that the draft report indicates
that the NCIS investigative process is already timely. The Navy stated that
additional standards would not effectively address the efficiency of the process
and that instead of establishing time standards and a system for monitoring those
time standards, NCIS could better use its time and resources with an ongoing
review of its current process to determine whether it is efficient or in need of
improvement.


                                    14
Evaluation Response. We do not accept the Navy’s nonconcurrence to the
recommendation.

In assessing the timeliness of NCIS internal investigations, we found that the
cases we reviewed took an average of 63 days to complete, with a standard
deviation of 61. We noted that the average amount of time it took DCIS to
complete an agent misconduct investigation was 79 days, and that AFOSI
completed them in an average of 58 days. We were unable to ascertain a
comparable average for USACIDC; however, the average for the DCIOs (minus
USACIDC) was 67 days. Because of this, we concluded that in general the
amount of time NCIS spent on its cases was within normal limits. However, we
also found that twenty-five (or 40 percent) of the NCIS agent misconduct
investigations we reviewed exceeded one standard deviation. This means it took
significantly longer than the average to complete these investigations. Although
the overall average amount of time they expended was within normal limits, there
remained a great spread in the amount of time it took NCIS to conduct these
investigations.

We found that paragraph 13-5.2.a of NCIS-1 required the IG to “establish the
priority of the investigation.” The only other discussion of “priority” appears in
paragraphs 25-3.2.a. and c. of NCIS-1, which establishes Priority I and II
investigations. These paragraphs do not specify whether NCIS agent misconduct
investigations should be classified as Priority I or II investigations, so we assume
they would be classified according to the substantive nature of the investigation
itself. NCIS-1 does not provide a timeliness standard for completing an
investigation, but does state that, “timeliness in resolving issues and reporting the
findings is a critical function of supervision. This reporting requirement extends
past the active investigative phase to include timely reporting of the disposition of
Subject, Co-subject and Corporation.” We agree with the NCIS philosophy, and
it is for that reason that we recommended the establishment of timeliness
standards.

 By establishing a timeliness standard for each phase of agent misconduct
investigations, the DCIOs in general and NCIS in particular would have a
“tripwire” that alerts them to investigations that are taking longer than normal to
complete and where specifically the delay is occurring. Because our
recommendation is a reasonable management control that would enable NCIS to
more effectively manage these investigations, we do not accept its
nonconcurrence to recommendation A.2. We request that the Navy reconsider its
position and provide comments on the final report.

Air Force Comments. The Air Force concurred stating AFOSI Instruction
71-138, Investigations of AFOSI Personnel, will be revised to establish standards
of timeliness for each phase of an investigation, review, and final action on
AFOSI personnel. Metrics will be developed to measure compliance rates. The
estimated effective date for implementation of this process is October 1, 2000.




                                     15
B. Preventing Agent Misconduct
    The DCIOs do not have procedures in place for aggregating, analyzing, and
    disseminating information on agent misconduct as part of a larger preventive
    effort. Although they do have policies and procedures that enable them to
    investigate and resolve allegations of agent misconduct, the information that
    collectively results from those investigations is not compiled and used to develop
    systematic programs of prevention. As a result, the DCIOs do not derive
    maximum organizational benefit from the experience gained in the agent
    misconduct investigations they conduct.


Background
    In order for DCIO leaders and managers to prevent agent misconduct, they must
    identify its nature and distribution. If cases of agent misconduct investigated over
    time can be shown to follow patterns or trends, awareness of those patterns and
    trends might suggest systemic weaknesses or vulnerabilities that can be
    addressed, alleviated, or corrected. For this reason, it is important for the DCIOs
    to approach agent misconduct at both the individual level and as a collective or
    institutional problem. In order to do this, the DCIOs should regularly collect data
    on agent misconduct and subject it to periodic analysis.


External Standards
    In an effort to identify appropriate standards for gathering and reporting agent
    misconduct data, we benchmarked several sources. The first was the Commission
    on Accreditation for Law Enforcement Agencies (CALEA), a non-governmental,
    non-operational law enforcement accrediting organization that seeks to improve
    delivery of law enforcement services by offering a body of standards, developed
    by law enforcement practitioners, covering a wide range of up-to-date law
    enforcement topics. CALEA has a standard requiring law enforcement agencies
    to compile annual statistical summaries based upon records of internal affairs
    investigations and recommends that these summaries be made available to the
    public and to agency employees. We also reviewed the standards employed by
    the FBI, ATF, and DEA. Our objective was to identify practices that have been
    beneficial to other law enforcement organizations and to see if they could be
    productively applied to the DCIOs. We noted also that the National Academy of
    Public Administration (NAPA), in its 1999 report, “Adapting Military Sex Crimes
    Investigations to Changing Times,” recommended that the MCIOs publish
    statistical summaries of internal affairs investigations, conduct analyses of such
    events, and develop an ethics and professional standards course for special agents.

    We found that the civilian Federal law enforcement agencies we used as
    benchmarks all gather data on agent misconduct and issue reports that outline the
    nature and distribution of the internal affairs investigations they conduct.

    FBI: The FBI’s Office of Professional Responsibility (FBI/OPR) issues a
    semiannual report on its Disciplinary Program. These reports provide historical
    data on the age of pending cases as well as information on allegations of

                                         16
    misconduct by category. In addition, FBI/OPR provides information on the
    percentages of employees who were disciplined by type of misconduct and the
    outcome of FBI/OPR investigations. Their reports also note disciplinary trends
    and policy revisions pertinent to integrity issues.

    ATF: ATF does not issue a separate report but instead provides pertinent
    information to the Department of the Treasury Inspector General, who issues a
    consolidated semiannual report to Congress.21 This report aggregates
    performance and case statistics from a variety of Treasury agencies and includes
    multiple topics, including substantive sections on agent misconduct.

    DEA: The DEA’s Office of Professional Responsibility (DEA/OPR) issues
    periodic reports that identify five-year trends in its internal affairs
    investigations.22 The DEA/OPR report also provides information on the
    geographic distribution of the allegations it investigates; the most common DEA-
    wide allegations; disciplinary decisions taken based upon DEA/OPR
    investigations; and MSPB decisions that have been issued. DEA/OPR also
    discusses the proactive measures it takes in dealing with integrity issues and
    provides examples of the types of matters it investigates.23


DCIO Analyses and Reports of Agent Misconduct Cases
    Each DCIO maintains files and some data on agent misconduct at its respective
    Headquarters. 24 USACIDC also has the supervisors of agents who are on
    probation provide quarterly reports on the agent’s progress, particularly as
    concerns the matter investigated. NCIS requires quarterly reports from Special
    Agents in Charge and the Deputy Assistant Director Career Services of any oral
    admonishments or letters of caution to ensure uniformity of disciplinary action
    within NCIS, but compliance with such reporting has been sporadic at best. DCIS
    and AFOSI do not have comparable reports. The DCIO officials we interviewed
    stated that due to the low number of agent misconduct investigations, analysis and
    identification of trends are not routinely done and would not, in their opinion, be
    effective. In addition, none of the DCIOs publishes an annual or semiannual

    21
       This semiannual report includes activities investigated by the following Treasury agencies:
     Office of the Inspector General, the Internal Revenue Service Inspection Service, the Customs
     Office of Internal Affairs, the ATF Office of Inspection, and the Secret Service Office of
     Inspection.
    22
      DEA’s most recent report is in the form of a memorandum from the Deputy Chief Inspector,
     DEA Office of Professional Responsibility, to the Counsel, Department of Justice Office of
     Professional Responsibility, December 22, 1999.
    23
       Examples include corruption; conduct unbecoming a DEA employee; failure to follow
     instructions of a supervisor and failure to follow written instructions; unauthorized disclosure of
     information; theft of government funds; improper association with a confidential source;
     unauthorized charges on a government credit card; refusal to cooperate in an OPR investigation;
     providing false statements in an OPR interview; unprofessional conduct; assault; and falsification
     of official records.
    24
       Prior to January 1999, the Army USACIDC Accreditation Branch only maintained files on
     those agents recommended for decertification.



                                               17
    report on its agent misconduct investigations. We were unable to locate or
    identify any products that used historical data to identify categories of risk or
    vulnerability. We were likewise unable to identify DCIO products that were, or
    could be, used to link patterns or trends of agent misconduct to specifically
    focused efforts to reduce agent misconduct.

    In January 1997, AFOSI issued a report entitled, “Internal AFOSI Inquiries
    Evaluation 96-2” which “. . . was chartered to examine all internal inquiries
    conducted on AFOSI agents during the five year period 1991-1995 . . .” A
    primary goal of this evaluation was “. . . to determine if there were any
    identifiable indicators or flags in the ‘110’25 pre-selection process that might
    identify possible future ‘problem agents’.” The AFOSI evaluators identified 144
    internal inquiries and reviewed half of them. The AFOSI evaluation found that,
    “Agents of all ages, experience levels, locations and gender occasionally make
    mistakes and/or do stupid, unethical or illegal things.” The evaluation concluded
    that “Normally good people occasionally do stupid things or make poor
    judgments that seem to be out of character for that person.” They further
    concluded, “that ‘good agents’ sometimes transgress is probably a reflection of
    human nature and to a large degree, our societal values.” The AFOSI report made
    no recommendations.


Management Controls Designed to Deter Agent Misconduct
    DoD Directive 5010.38, “Management Controls,” August 26, 1996, requires each
    DoD Component to implement a comprehensive strategy for management
    controls that provides reasonable assurance, inter alia, that “[p]rograms and
    administrative and operating functions are efficiently and effectively carried out
    in accordance with applicable law and management policy.” We met with
    representatives of the DCIOs to determine what management controls they have
    instituted to affirmatively deter agent misconduct. They reported some
    mechanisms such as focused instruction in basic agent training and annual ethics
    in-service training;26 inspection programs; policies; internal assessments; an
    emphasis on integrity from the top to the bottom; and a few other specific efforts.
    Examples of the latter include the NCIS Assistant Director for Inspections
    routinely addressing agent misconduct at a two-week Federal Law Enforcement
    Training Center managerial training course, and AFOSI’s program where
    sensitivity and misconduct scenarios are presented at an advanced training course
    for supervisors.

    In addition, DCIO officials stated that to emphasize ethics-related awareness and
    policies they periodically place articles and reminders on ethical issues in their
    newsletters and in policy memoranda to all employees. For example, DCIS has
    produced a newsletter reminding agents of prohibited practices. NCIS publishes
    reminders in its weekly publications, Plan of the Week, and in its bimonthly
    publication, Legal Briefs. In August 1998, AFOSI began publishing a monthly

    25
         110 refers to the evaluation of the suitability of candidates to become AFOSI agents.
    26
      DoD Directive 5500.7-R is the source of standards of ethical conduct and ethics guidance for
     the Department of Defense. In accordance with the requirements of this Directive, agents receive
     initial and mandatory annual ethics training of general DoD standards of conduct.



                                                  18
    publication The IG News which replaced the Crosstell. This publication presents
    the command’s critical success factors, special interest items, and provides trends
    seen during inspections and processing internal complaints. It highlights the most
    common and serious issues undertaken by the IG office in both the inspections
    and inquiries components.


Reporting and Disseminating Agent Misconduct Information
    Currently, there is no centrally maintained Special Agent Misconduct Reporting
    System at the DoD level to monitor misconduct issues. Each DCIO maintains
    files and data on agent misconduct within its appropriate organizational
    component. The NAPA Report, “Adapting Military Sex Crime Investigations to
    Changing Times,” recommended in Chapter 13 that DoD initiate a centrally
    maintained Special Agent Misconduct Reporting System at the DoD level to
    monitor misconduct issues, analyze specific instances for patterns, identify
    systemic problems, and track corrective actions for consistency and
    appropriateness. In our conversations with DCIO officials, they stated that due to
    the low number of agent misconduct investigations, analysis and identification of
    trends are not routinely done. The NAPA report also recommended that “To gain
    public confidence, misconduct allegations, proven and otherwise, should be
    included in semi-annual statistics reports similar to those published by the FBI.”
    DCIO officials stated that providing statistical reports for small agencies like the
    DCIOs, with few incidents of misconduct, would be problematic since
    descriptions of infrequent misconduct and disciplinary action would most likely
    lead to the inadvertent and unnecessary identification of the agent involved.


Conclusion
    The DCIOs' management controls to deter agent misconduct appear to be
    adequate. Basic training along with mandated annual ethics training and in-
    service training by the DCIOs is useful. We believe that the high priority given to
    agent misconduct investigations by the DCIOs and the current oversight controls
    identified in this evaluation play a satisfactory role in deterring, identifying, and
    managing agent misconduct within the DCIOs. We believe, however, that the
    DCIOs must aggregate and analyze agent misconduct data and that this practice
    would enhance their ability to affirmatively address agent misconduct issues
    through a more aggressive program of misconduct prevention. For this reason we
    agree in principle with the first recommendation made by NAPA, that “To gain
    public confidence, misconduct allegations, proven and otherwise, should be
    included in semi-annual statistics reports similar to those published by the FBI.”
    However, because of the small number of cases within the DCIOs, we do not
    agree that semi-annual reporting is warranted. We do conclude that information
    on these cases should be aggregated, analyzed, and reported at periodic intervals
    (particularly throughout the respective DCIO) and that specific patterns, trends,
    lessons learned, or other useful information be presented to derive maximum
    benefit from the experience gained during agent misconduct investigations.




                                         19
Recommendations, Management Comments, and Evaluation
Response
    B.1. The DCIOs establish a program at their headquarters for aggregating
    and analyzing all agent misconduct cases.

    DCIS Comments. DCIS nonconcurred with the recommendation stating that on
    the average DCIS conducts 15 agent misconduct cases per year. In an effort to
    eliminate agent misconduct, they review each allegation and regularly provide
    patterns of misconduct to employees and managers through senior manager
    conferences, group manager and RAC conferences, and through in-service
    training. They further stated that with the reviews they already do, an additional
    “official” program to analyze the few cases they have would provide no additional
    benefit to the agency.

    Evaluation Response. DCIS provided numerous examples of conference
    materials containing agent misconduct statistical information. We therefore
    conclude that the DCIS practice is responsive to the recommendation.

    Army Comments. The Army concurred with the recommendation stating that
    the recommendation will be accomplished under the same provisions outlined in
    “Comment 3” of their response to the draft report.

    Evaluation Response. The Army’s response to this recommendation is unclear.
    We request the Army provide additional information in their comments on the
    final report to include actions taken or planned.

    Navy Comments. The Navy nonconcurred with the recommendation stating that
    the draft report indicates that there are too small a number of agent misconduct
    cases within the DCIOs to justify semi-annual reporting. Navy also stated there
    are too few misconduct cases for “aggregating and analyzing.”

    Evaluation Response. We identified an average of 22 NCIS agent misconduct
    investigations per year. Although this number is too low to justify semi-annual
    reporting – or perhaps even annual reporting – it does justify aggregating and
    analyzing those cases at periodic intervals. The failure to do so would deprive
    NCIS leadership of valuable and important insight into potential problem areas
    and trends. Moreover, the failure to do so would render the cases that are
    investigated anecdotal and preclude a systematic approach to “lessons learned.”
    For these reasons we do not accept NCIS’ nonconcurrence to recommendation
    B.1. We request that the Navy reconsider its position and provide comments on
    the final report.

    Air Force Comments. The Air Force concurred with the recommendation
    stating that data collected from metrics referenced in recommendation B.1 will be
    used to collect, analyze, evaluate, and modify internal investigations processes as
    needed.

    B.2. The DCIOs publish periodic reports on agent misconduct and
    disseminate those reports throughout their respective organizations. These
    reports should highlight patterns and trends in agent misconduct and offer
    guidance for their detection and prevention.

                                        20
DCIS Comments. DCIS partially concurred with the recommendation stating
that DCIS provides general misconduct information in The Eagle (their internal
newsletter) and the topic is discussed at all senior manager, group manager, and
RAC meetings, and at In-Service Training sessions held during the year.
Additional reporting requirements would not provide any additional benefit to the
agency.

Evaluation Response. Based on examples of documents provided by DCIS, we
conclude that the DCIS practice is responsive to the recommendation.

Army Comments. The Army concurred with the recommendation stating they
will take action to develop and disseminate periodic reports throughout the
organization. Their primary focus will be to provide information regarding
possible trends in agent misconduct with a goal towards detection and possible
prevention.

Evaluation Response. We request the Army provide information on actions
taken or planned and dates of those actions in their comments on the final report.

Navy Comments. The Navy concurred.

Evaluation Response. We request the Navy provide information on actions
taken or planned and dates of those actions. We also request that in their
comments on the final report the Navy address compliance with quarterly
reporting requirements by senior management as referenced in NCIS-1, paragraph
18-8.1.e.

Air Force Comments. The Air Force concurred with the recommendation
stating AFOSI IG will begin issuing semi-annual reports in January and July
2001. The semi-annual reports will analyze agent misconduct investigations,
show patterns and trends, and offer guidance to commanders and supervisors for
the detection and prevention of agent misconduct. The first semi-annual report
will be issued in January 2001 and will cover all closed cases in which final
action has been completed during the period July through December 2000.




                                    21
Appendix A.                   Evaluation Process

Scope
        We reviewed DCIO policies, procedures, and processes; gathered data from non-
        DoD organizations to use as benchmark measures; and we evaluated DCIO agent
        misconduct investigations that were closed during calendar years 1996 through
        1998. We limited our evaluation to misconduct matters, which excluded
        performance-related issues and grievances. In addition, we did not attempt to
        contrast the individual DCIO agent misconduct investigation processes, since
        their diverse programs preclude fully meaningful comparisons. Instead, we
        focused on whether each DCIO process for handling agent misconduct allegations
        was effective and highlighted areas where additional emphasis might be needed or
        be beneficial.



Methodology
        Work Performed. We assessed DCIO policies, procedures, and processes for
        addressing agent misconduct cases, beginning with the initial allegation and
        continuing through the internal investigation and any resulting disciplinary action.

        For each DCIO, we identified the organizational component responsible for
        receiving initial allegations of agent misconduct. We also reviewed the DCIOs’
        authorities, policies, and procedures for processing these allegations. In addition,
        we reviewed closed case files for calendar years 1996 through 1998, to assess
        compliance with policy and other requirements, and to make comparisons with
        other agency benchmarks. Finally, we interviewed management officials, review
        board officials, and agents involved in the agent misconduct investigation process,
        including management officials responsible for deciding disciplinary actions.

        Evaluation Period and Contacts. This evaluation was performed from February
        1999 through December 1999. We visited or contacted individuals and
        organizations within the DoD and other Federal agencies. Further details are
        available on request.




                                             23
Prior Coverage (Details at Appendix B)
     • GAO/NSIAD-97-117, “Naval Criminal Investigative Service, Fraud Interview
        Policies Similar to Other Federal Law Enforcement Agencies,” April l997.

     • Air Force Office of Special Investigations, “Internal AFOSI Inquiries:
        Evaluation 96-2,” January 1997.

     • National Academy of Public Administration Report, “Adapting Military Sex
        Crime Investigations to Changing Times,” June 1999.

     • U.S. Senate Majority Staff report to the Chairman, Senate Judiciary
        Subcommittee on Administrative Oversight and the Courts, “The Defense
        Criminal Investigative Service, Department of Defense,” November 2, 1999.




                                          24
Appendix B.                Relevant Prior Reviews

Summary of Prior Coverage
     Air Force Office of Special Investigations, “Internal AFOSI Inquiries:
     Evaluation 96-2,” January 1997. This internal evaluation concluded that the
     current AFOSI pre-selection policy is a reasonable process that is working as
     intended and almost always results in good agents being approved for AFOSI
     duty. The evaluation provided no specific recommendations.

     The U.S. General Accounting Office Report GAO/NSIAD-97-117, “Naval
     Criminal Investigative Service, Fraud Interview Policies Similar to Other
     Federal Law Enforcement Agencies,” April 1997. This report concluded that
     the Naval Criminal Investigative Service has established controls to deter, detect,
     and deal with agent misconduct. Agents are trained in interview policies during
     their initial training at the Federal Law Enforcement Training Center and through
     in-house and contractor training. In addition, other controls include: (1) periodic
     inspections of Naval Criminal Investigative Service field offices; (2) internal
     investigations of alleged agent misconduct; (3) oversight of cases and allegations
     of agent misconduct by the DoD Inspector General; and (4) the involvement of
     the U.S. Attorney’s offices in grand jury investigations and prosecutions.

     The National Academy of Public Administration Report, “Adapting Military
     Sex Crime Investigations to Changing Times,” June 1999. This report stated
     that increased management attention to agent misconduct would increase trust and
     confidence in the MCIOs. To enhance the MCIOs’ ability to handle instances of
     agent misconduct, the report offered three recommendations. First, it
     recommended that MCIO managers elevate the issue of agent misconduct within
     the MCIOs through publicity, training aids, and ethics conferences. To gain
     public confidence, misconduct allegations, proven and otherwise, should be
     included in semi-annual statistical reports similar to those published by the FBI.
     Second, it recommended that DoD initiate a centrally maintained Special Agent
     Misconduct Reporting System to monitor misconduct issues, analyze specific
     instances for patterns, identify systemic problems, and to track corrective actions
     for consistency and appropriateness. Third, it recommended that the MCIOs
     develop a single ethics and professional standards training course, either during
     basic agent training or as an add-on or graduate course. Agent attendance at the
     course should be mandatory. Except as specifically discussed in the body of this
     report, we found no basis for fully adopting the NAPA conclusions and
     recommendations.




                                         25
U.S. Senate Majority Staff report to the Chairman, Senate Judiciary
Subcommittee on Administrative Oversight and the Courts, “The Defense
Criminal Investigative Service, Department of Defense,” October 1999. The
Senate Majority Staff Report criticized the DoD Acting Inspector General for
management decisions made in a senior agent misconduct case when the Acting
Inspector General was the Assistant Inspector General for Investigations and
headed DCIS. It also criticized a former DCIS special agent’s work in conducting
internal investigations. Both the Secretary of Defense and the Acting Inspector
General sent rebuttals to Congress.




                                   26
Appendix C.                  Policies, Procedures, and
                             Regulations Reviewed

Department of Defense, Inspector General

       (1) Inspector General Regulation 1400.4, “Disciplinary and Adverse Action,”
           December 30, 1994.
       (2) DoD Directive 5500.7, “Standards of Conduct,” August 30, 1993.


DCIS

       (1) Special Agents Manual, Chapter 34 (Operations), “Internal Inquiries,”
           November 1994.
       (2) Special Agents Manual, Chapter 44 (Administration), “Disciplinary and
           Adverse Action,” March 1995.
       (3) Memorandum for all Special Agents, Revision of Chapter 34, “Internal
           Inquiries,” DCIS Special Agents Manual, July 16, 1999.


Army

       (1) AR 15-6, “Procedure for Investigating Officers and Boards of Officers,”
           September 30, 1996.
       (2) AR 195-3, Chapter 4, “Acceptance, Accreditation, and Release of United
           States Army Criminal Investigation Command Personnel,” April 22, 1987.
       (3) AR 690-700, “Personnel Relations and Services (General) - Discipline,”
           Table 1-1, “Table of Penalties for Various Offenses,” Undated.
       (4) CIDR 1-201, “Office of the Inspector General, Organization Inspection
           Program,” January 1, 1996.
       (5) CIDR 195-1, “Criminal Investigation Operational Procedures,” October 1,
           1994.
       (6) ALCID Memorandum 004-99, Change to CIDR 195-1, “Criminal
           Investigation Operational Procedures” (Chapter 19), February 18, 1999.
       (7) ALCID Memorandum 013-99, Change to CIDR 195-1, “Criminal
           Investigations Operational Procedures” (Chapter 7), June 30, 1999.

                                          27
       (8) ALCID Memorandum 014-99, Change to CIDR 195-1, “Criminal
           Investigation Operational Procedures” (Chapter 19), July 14, 1999.


Navy

       (1) NCIS-1, “Manual for Administration,” Chapter 13, “Special Agent Standards
           and Performance,” Chapter 13-5, Internal Personnel Inquiry Investigations,
           May 1995.
       (2) NCIS-1, “Manual for Administration,” Chapter 18, “Disciplinary and
           Adverse Action Procedures,” May 1996.
       (3) NCIS-1, “Manual for Administration,” Chapter 25, “Report Writing,”
           December 1995.


Air Force

       (1) Air Force Instruction 36-704, Civilian Personnel, “Discipline and Adverse
           Actions,” July 22, 1994.
       (2) AFOSII 36-2103, Personnel, “Release of Personnel from Duty with AFOSI,”
           March 24, 1997.
       (3) AFOSII 36-2901, Personnel, “Standards of Professional Conduct for AFOSI
           Personnel,” November 12, 1996.
       (4) AFOSII 71-107, Special Investigations, “Processing Investigative Matters,”
           December 9, 1996.
       (5) AFOSII 71-107, Special Investigations, “Processing Investigative Matters,”
           September 23, 1998.
       (6) AFOSII 71-109, Special Investigations, “Case File Numbering System and
           Hundred Series Case Types,” August 31, 1998.
       (7) AFOSII 71-138, Special Investigations, “Investigations of AFOSI Personnel,”
           November 27, 1996.


Civilian Law Enforcement Agencies and Other Law Enforcement
References

       (1) Commission on Accreditation for Law Enforcement Agencies, Inc.
           (CALEA). “Standards for Law Enforcement Agencies, The Standards
           Manual of the Law Enforcement Agency Accreditation Program,” Third
           Edition, Chapter 52, “Internal Affairs,” April 1994.


                                          28
     (2) Institute of Police Technology and Management (IPTM), Jacksonville,
         Florida.
     (3) National Internal Affairs Investigators Association, Richmond, VA
     (4) Federal Law Enforcement Officers Association (FLEOA)


Other Referenced Documents

     (1) National Academy of Public Administration (NAPA). A report by a panel of
         the NAPA for the Department of Defense and the United States Congress,
         “Adapting Military Sex Crime Investigations to Changing Times,” June 1999.
     (2) U.S. Senate Majority Staff report to the Chairman on the Oversight
         Investigation -- The Defense Criminal Investigative Service, Department of
         Defense, November 2, 1999.
     (3) President’s Council on Integrity and Efficiency (PCIE), “Quality Standards
         for Investigations,” September 1997.




                                        29
APPENDIX D.                  ORGANIZATIONS VISITED OR
                             CONTACTED

DEPARTMENT OF DEFENSE INSPECTOR GENERAL
• Headquarters, DCIS, Arlington, VA


DEPARTMENT OF THE ARMY
• Headquarters, USACIDC, Fort Belvoir, VA
• Inspector General, Department of the Army, Pentagon, Washington, DC


DEPARTMENT OF THE NAVY
• Headquarters, NCIS, Inspections Department, Washington Navy Yard, Washington,
  DC
• Naval Inspector General, Investigations, Washington Navy Yard, Washington, DC


DEPARTMENT OF THE AIR FORCE
• Headquarters, AFOSI, Andrews Air Force Base, Washington, DC
• Inspector General, Department of the Air Force, Andrews AFB, Maryland


FEDERAL ORGANIZATIONS
•   Headquarters, Bureau of Alcohol, Tobacco, and Firearms, Washington, DC
•   Headquarters, US Coast Guard, Washington, DC
•   Headquarters, US Customs Service, Washington, DC
•   Headquarters, Federal Bureau of Investigation, Washington, DC
•   Headquarters, Drug Enforcement Agency, Arlington, VA


PROFESSIONAL & ACADEMIC ORGANIZATIONS
•   Commission on Accreditation for Law Enforcement, Inc., Fairfax, VA.
•   Federal Law Enforcement Officers Association, Garden City, NY
•   National Association of Internal Affairs Investigators, Richmond, VA
•   Institute of Police Technology and Management, Jacksonville, FL




                                          30
Appendix E.                 Benchmark and Reference
                            Agency Profiles

Federal Bureau of Investigation
     The Federal Bureau of Investigation is the principal investigative arm of the
     U.S. Department of Justice. The FBI investigates suspected violations of Federal
     law and its responsibilities include providing protection from foreign intelligence
     and terrorist activities, and assistance to other law enforcement organizations.
     The FBI has approximately 11,400 special agents and 16,400 other professional,
     administrative, technical, clerical, craft, trade, or maintenance operations
     employees. The internal affairs organization within the FBI is the Office of
     Professional Responsibility. During fiscal year 1998, OPR opened 457 new
     inquiries of alleged criminality or serious misconduct by 517 employees. In
     addition, 528 cases involving 615 employees were closed during this same period.
     Of the 615 employees, 140 special agents and 161 support personnel were
     disciplined.



Drug Enforcement Agency
     The Drug Enforcement Agency is a part of the U.S. Department of Justice. Its
     mission is to enforce the controlled substance laws and regulations of the United
     States and to bring to the criminal and civil justice system those organizations and
     individuals involved in the growing, manufacture, or distribution of controlled
     substances appearing in or destined for illicit traffic in the United States. DEA
     also recommends and supports non-enforcement programs aimed at reducing the
     availability of illicit controlled substances on the domestic and international
     markets. DEA currently has 4,515 special agents and 3,900 support staff. The
     internal affairs apparatus in DEA is the Office of Professional Responsibility. In
     fiscal year 1998, OPR opened 229 cases, resulting in disciplinary actions taken
     against 31 special agents and 54 non-special agents.



The Bureau of Alcohol, Tobacco and Firearms
     The Bureau of Alcohol, Tobacco and Firearms is a law enforcement organization
     within the United States Department of the Treasury with responsibilities to
     collect taxes and enforce the Federal laws and regulations relating to alcohol,
     tobacco, firearms, explosives, and arson. ATF has approximately 3000
     employees, including 1300 special agents. The internal affairs organization
     within ATF is the Office of Inspection. In the six months that ended on March
     31, 1998, the ATF Office of Inspection opened 129 cases and referred 5 to

                                          31
      prosecution authorities, of which one was accepted for prosecution. An additional
      32 personnel actions were taken against ATF employees. These figures include
      all ATF employees, including special agents.



Commission on Accreditation for Law Enforcement Agencies
      The Commission on Accreditation for Law Enforcement Agencies (CALEA) was
      founded in 1979 to establish a body of standards designed to: (1) increase law
      enforcement agency capabilities to prevent and control crime; (2) increase agency
      effectiveness and efficiency in the delivery of law enforcement services; (3)
      increase cooperation and coordination with other law enforcement agencies and
      with other agencies of the criminal justice system; and (4) increase citizen and
      employee confidence in the goals, objectives, policies, and practices of the
      agency. In addition, the Commission was formed to develop an accreditation
      process that provides law enforcement agencies an opportunity to demonstrate
      voluntarily that they meet an established set of professional standards. CALEA is
      a joint effort of the International Association of Chiefs of Police, the National
      Organization of Black Law Enforcement Executives; the National Sheriff’s
      Association; and the Police Executive Research Forum. CALEA publishes the
      Standards for Law Enforcement Agencies.



Institute of Police Technology & Management
      The Institute of Police Technology and Management (IPTM), University of North
      Florida, was established in January 1980 for the purpose of providing
      management, traffic, and specialty training to municipal, county, state, and federal
      law enforcement officers. Since its establishment, the institute’s role in the police
      community has expanded to include the publishing of texts and serving as
      management consultants to police organizations throughout the world. IPTM
      trains annually more than 12,000 civilian and military law enforcement personnel
      throughout the United States and the abroad.



National Internal Affairs Investigators Association
      The National Internal Affairs Investigators Association is a professional group of
      law enforcement officers employed by various city, county, state and federal
      agencies who are involved in internal affairs investigations. It is a professional
      organization and not an investigative agency. The purpose of the Association is
      to develop and establish standards of performance and integrity for internal affairs
      investigators and to provide training to bring about professional growth and
      development. They present forums for discussion of common problems and court
      decisions, gather and disseminate information regarding improved administrative
      and technical practices, foster law enforcement cooperation, and exchange
      information and experiences among internal affairs investigators throughout the
      United States.

                                           32
President’s Council on Integrity and Efficiency
      Established by executive order, the President's Council on Integrity and
      Efficiency (PCIE) is comprised of all Presidentially-appointed Inspectors General.
      In addition, the Executive Order specifies the Office of Government Ethics, the
      Office of Special Counsel, the Federal Bureau of Investigations, and the Office of
      Management and Budget (OMB) as members of the PCIE. The Council is
      chaired by the Deputy Director for Management at OMB and an IG holds the
      position of Vice Chair.

      The PCIE is charged with conducting interagency and inter-entity audit,
      inspection, and investigation projects to deal effectively and efficiently with
      government-wide issues of fraud, waste and abuse. The Council accomplishes
      this through committee activity. Established committees of the PCIE include
      Audit, Inspection and Evaluation, Integrity, Investigations, Legislation and
      Professional Development.

      There is also an Executive Council on Integrity and Efficiency (ECIE). The ECIE
      and PCIE are the same except that the ECIE is comprised mainly of the
      designated Inspectors General. An ECIE member serves as a Council
      representative on each of the PCIE Committees.




                                          33
Appendix F.                 DCIO Case Review: Anomalies
     A small number of DCIO agent misconduct investigations were examined in
     greater detail because they presented unusual aspects, or because we heard about
     staff allegations that either the DCIO managers or investigating agents had
     handled the matters improperly. These cases are summarized below.



Defense Criminal Investigative Service
     The DoD Hotline received a complaint alleging a number of violations. Among
     the allegations were charges that managers at a DCIS field office permitted the
     widespread misuse of Government vehicles and allowed inappropriate activities,
     such as certain types of liaison activities, to be credited as official duty. Since
     former members of the particular field office had been transferred to DCIS
     Headquarters, the then DoD Deputy Inspector General, Derek Vander Schaff,
     directed that the Office of the Assistant Inspector General for Criminal
     Investigative Policy and Oversight (CIPO) conduct an investigation of how the
     field office was managed and whether DCIS policy was complete and clear in
     addressing the issues raised in the allegation. Utilizing CIPO to conduct this
     review was a departure from normal procedures outlined in the DCIS Special
     Agents Manual. This resulted in eliminating this case from consideration in this
     evaluation.



Naval Criminal Investigative Service
     The Naval IG Hotline received a complaint alleging that a senior NCIS manager
     was promoted after being investigated and disciplined by NCIS. The allegations
     included a claim that the senior manager diverted a military aircraft for personal
     business reasons during an overseas temporary duty (TDY) trip. The Naval IG
     staff conducted a preliminary inquiry and determined that the senior manager had
     taken a TDY trip as alleged, but used commercial airlines, not a military aircraft.
     The Naval IG also determined that the TDY involved a stop in a third country, but
     the stop was to attend a scheduled conference, and the travel had all been
     approved before the TDY. Therefore, the Naval IG concluded the matter without
     the need for a full investigation or referral to NCIS. Our evaluation did not
     disclose a problem with the manner in which the Naval IG handled the case.

     Another NCIS investigation involved a complaint to the DoD Hotline, which was
     referred to the Naval IG and, in turn, to NCIS for internal investigation. The
     complaint included several misconduct allegations, including claims that
     Government vehicles and Government credit cards had been misused. NCIS
     conducted an internal investigation that did not substantiate the allegations and
     submitted a report to the Naval IG. The Naval IG, however, returned it to NCIS
     for further investigation because not all the issues referred for investigation had

                                          34
      been addressed. The second NCIS investigation identified a minor state motor
      vehicle violation, but did not find that Government vehicles or credit cards had
      been misused. The Naval IG accepted the second investigation as the basis for
      closing the matter. Based on our evaluation, NCIS policies and procedures for
      internal investigations were not initially effective in this case, but the problems
      were isolated to the particular case and did not constitute systemic problems in
      NCIS applying its policies and procedures for internal investigations.



Air Force Office of Special Investigations
      AFOSI received a complaint containing several allegations, the most serious of
      which was that a junior manager made unauthorized deletions in the Defense
      Clearance and Investigations Index (DCII). Another allegation claimed that this
      agent was absent from his office for several hours a day on personal business.
      AFOSI appointed an investigating agent upon receiving the complaint. A senior
      AFOSI manager instructed the investigating agent to complete an investigative
      report within a week, concentrating on the most serious allegation pertaining to
      DCII data deletions. The investigating agent, acting in accordance with
      management guidance, reviewed records and interviewed local personnel in
      positions to confirm or refute the allegations regarding the DCII issue. He did not
      substantiate the allegations. However, due to the management decision to limit
      the investigation to the more serious allegation involving DCII, the investigating
      agent did not apply investigative techniques that were applicable to the allegations
      and did not thoroughly investigate the allegations regarding absences from the
      office. Notwithstanding shortcoming in the investigation, AFOSI initially
      proposed to remove the manager from Federal Service, based largely on the
      individual’s absences from his office. Following an appeal to the Merit Systems
      Protection Board, AFOSI and the junior agent entered into an agreement
      permitting the agent to remain as an AFOSI agent with a temporary, one-grade
      level demotion in rank and pay for one year. This investigation was an example
      of not applying governing policies and procedures fully, as intended. As was true
      in the NCIS case, however, the problems were isolated to the particular case and
      did not reflect a systemic problem in AFOSI applying its policies and procedures
      to internal investigations.




                                            35
Appendix G.                           Outcome of Investigations (1996 – 1998)
                                         DEFENSE CRIMINAL INVESTIGATIVE SERVICE (DCIS)
               Type of Misconduct               Dismissal             Suspension              Letter of        Letter of   Counseled         No          Total
                                                                     (without pay)            Caution         Reprimand                    Adverse
                                                                =>15 days     =<14 days                                                    Action
   1 Accidental Discharge of Weapon                                                                                    1                                         1
  2   Assault                                               1                                             1                                                      2
  3   Conflict of Interest                                                                                                                           1           1
  4   Loss of Badge & Credentials                                                                                      1               1             1           3
  5   Loss of Government Equipment                                                        1               1                                                      2
  6   Loss of Weapon                                                      1               1                                            1                         3
  7   Misuse of Government Property                                                                                                    1                         1
  8   Misuse of Government Vehicle                                        1                               1                                          1           3
  9   Misuse of Official Position                                         1                                                                          1           2
 10   Sexual Misconduct                                                                                                                              1           1
 11   Threatened Spouse with Bodily Harm                                                                                                             1           1
 12   Unprofessional Conduct, Threats,                                                                    1            1               1             2           5
      Drunk & Disorderly
                Total                                       1             3               2               4            3               4             8
"Suspension =>15 days" signifies a suspension without pay for 15 or more days.
"Suspension =<14 days" signifies a suspension without pay for 14 or less days.




                                                                                   36
APPENDIX G.                           OUTCOME OF INVESTIGATIONS (1996 – 1998)
                                            U.S. ARMY CRIMINAL INVESTIGATION COMMAND (USACIDC)
          Type of Misconduct          Confine-     Elimi-     Relieved     Temp       Reduction     Article 15   Fine        Letter of Memo of    Probation   Counseled   Total
                                       ment        nation     of Duties   Relieved    in Grade                              Reprimand Reprimand
                                                                          of Duties
  1  Alcohol-Related                                      2                                                  2          1                                                      5
  2  Assault                                                                                                                                  1           1           1        3
  3  Derelict in duties                                   5                                                                         1         3           1                   10
  4  Falsification                                        9                                     2            2          1           2         3           2           2       23
  5  Adultery                                             1                                     1                                                                              2
  6  Integrity                                            2                                                                         1         1                                4
  7  Misuse of Government Property                        1                                                                                   1                                2
  8  Sexual Misconduct                                    1                                                                                                                    1
  9  Unprofessional conduct                                           1           1                                                 1         3                       1        7
 10  Financial                                            1                                                                                                                    1
 11  Larceny                                              1                                     1            1                                                                 3
 12  Loss of Weapon                                                                                                                           1                                1
 13  Indecent Assault                            1        1                                     1                                                                              2
                Total                            1       24           1           1             5            5          2           5        13           4           4
Totals represent the outcome for each offense. There may be multiple outcomes for each Subject.
Note: Table reflects only those cases that were recommended for elimination.




                                                                                      37
APPENDIX G.                         OUTCOME OF INVESTIGATIONS (1996 – 1998)
                                            NAVAL CRIMINAL INVESTIGATIVE SERVICE (NCIS)
             Type of Misconduct            Dismissal Demotion      Suspension           Letter of Letter of  Oral   Unfounded   Other     No      Total
                                                                  (without pay)         Caution Reprimand Reprimand                     Adverse
                                                                = > 15     = < 14                                                       Action
 1   Alcohol Abuse                                                                  1                                                         1        2
 2   Assault                                      1                                 1                   1                                              3
 3   Compromise of Criminal Intelligence                                                                                    1                          1
 4   Dereliction of Duty                                                                                                    1                          1
 5   Discharge of Weapon, Accidental                                                          2                             1                          3
 6   Discharge of Weapon, Line of Duty                                                                                      1                          1
 7   Discrepancy in Cash Account                                                                        1                                              1
 8   Domestic Violence                                                                                                              2         1        3
 9   DWI                                                                            1                                                                  1
10   False Statement on Application               1                                                     1                                              2
11   False Travel Claim                                     1                                                                                          1
12   Falsified Report                                                                                                       1                          1
13   Loss of Badge and Credentials                                                            8         1                   2                 2       13
14   Loss of Classified Material                                                                        1                                              1
15   Loss of Government (C&CI) Funds                                                          1                                                        1
16   Loss of Weapon                                                                 2                                       1                          3
17   Mishandling of Evidence                                                        2                   1         1                                    4
18   Misuse of Government Computer                                                                                                  1                  1
19   Misuse of Government Equipment                                                 1                                                                  1
20   Misuse of Government Vehicle                                     2                                 2                                              4
21   Misuse of Official Position                                                    1         3                                                        4
22   Passing Bad Checks                           1                                                                                                       1
23   Resisting Arrest                             1                                                                                                       1
24   Sexual Harassment                                                                                  1                                                 1




                                                                              38
 25 Theft                                            1                                                                                      1              2

APPENDIX G.                            OUTCOME OF INVESTIGATIONS (1996 – 1998)
                                                                                NCIS (Con’t.)
 26   Threats                                                                          2           1                                        1              4
 27   Unauthorized Disclosure of Official                                                                       1                                          1
      Manuals
 28   Unprofessional Conduct                                                1          1           1                                                       3
 29   Other                                          1                                                          2                           1              4
               Total                                  6            1           3       12          16             12            1          11      3   4
"Suspension = > 15" signifies a suspension without pay for 15 or more days.
"Suspension = < 14" signifies a suspension without pay for 14 or less days.
"Other" column includes a Marine CID agent who was terminated from NCIS due to misconduct, a RAC who was relieved of his RAC position, and
   misconduct that was handled as a performance issue rather than a discipline problem
The "Other" row (Item 29) under Type of Misconduct includes an improper letter written to a gun manufacturer, unauthorized part-time employment,
  concern about an agent's mental condition, and the showing of an obscene videotape during an agents' training session.




                                                                                     39
APPENDIX G.                        OUTCOME OF INVESTIGATIONS (1996 – 1998)
                                           AIR FORCE OFFICE OF SPECIAL INVESTIGATIONS (AFOSI)
       Type of Misconduct        Court         Decert-       Article       Demot-       Suspen-    UIF/        Letter of Letter of Letter of   Verbal       Adverse       Total
                                 Martial        ified          15           ion          sion      Pro-         Repri- Admonish-    Coun-      Coun-        Action
                                                                                                  bation        mand      ment      seling     seling

 1 Adultery                                              3             3                                   5          6                    2                                      19
 2 Alcohol abuse                                                                                           2          2                                                            4
 3 Assault (domestic violence,             1             1             1                                   5          6                                               1           15
   indecent assault)
 4 AWOL                                                  1                                                                                                                         1
 5 Badge and credentials lost                                                                                         2          2         6            4             2           16
 6 Badge and credentials                                                                                                                   1                          1            2
   stolen
 7 Battery                                               1                                                 2          2                                                            5
 8 Brandishing a deadly                                  1             1                                              1                                                            3
   weapon
 9 Breaking and entering                                                                                                                   1                          1            2
10 Communication of a threat                                                                                                                                          2            2
11 Conduct prejudicial to good                                                                                                             1                                       1
   order and discipline
12 Conduct unbecoming an                                                                                   2          2          2         1                                       7
   officer
13 Conspiracy to break and                                                                                                                 1                          1            2
   enter
14 Consuming alcohol at duty                                                        1                                                                                              1
   location
15 Dereliction of duty                                   1             2            2                      3          6          1         3            1             3           22
16 Destruction of government                                                        1                                                                                              1
   property
17 Driving under the influence                           1             1                                              1                                                            3
18 Evidence handling                                     1                                                            4          1         5            1             3           15
   irregularities (loss of
   evidence)
19 Excessive use of force                                                                                  1          1                                                            2




                                                                                        40
APPENDIX G.                      OUTCOME OF INVESTIGATIONS (1996 – 1998)
                                                 AFOSI (Con’t)
20 Failure to enforce good                                       2   2                    4
   order and discipline
21 Failure to obey an order or          2   3                    5   9       5           24
   regulation
22 Failure to pay just debt             1                 1      1   2                    5
23 Failure to report                    1                        1   1                    3
24 False official statement             1   1                    1   2   1   1       1    8
25 Falsifying time cards                         1                                        1
26 Financial misconduct                 1   1    1                   1                    4
27 Fraudulent receipt of BAQ                                     1   1                    2
28 Illegal search and seizure                                                1       1    2
29 Illegal use of drugs                 1                            1                    2
30 Improper use of                      2   2             1      2   3                   10
   government charge card
31 Indecent acts with another           1                                                 1
32 Indecent exposure                                             2   2                    4
33 Larceny                                  1    1                   1                    3
34 Leave fraud                                                       1                    1
35 Loss of weapon                           1                    1   2                    4
36 Maintaining pornographic                      1                                        1
   material
37 Making inappropriate racial                                   1   1                    2
   comments
38 Misprision of felony                                              1                    1
39 Misuse of C-Funds                                                         1   2        3
40 Misuse of government                                          2   3                    5
   equipment
41 Misuse of government                          1                                        1
   vehicle
42 Obstruction of justice                                                            1    1
43 Possession and distributing                                                       1    1
   stolen gov't property
44 Property damage                                               1   1                    2




                                                     41
APPENDIX G.                      OUTCOME OF INVESTIGATIONS (1996 – 1998)

                                                             AFOSI (Con’t)
45 Providing false information                                                  1       1                                                   2
   to LE agency
46 Rape                            1       1        1                                                                                       3
47 Security violation                      1                                    1       1                                                   3
48 Sexual harassment                                                            1       1          1                            1           4
49 Sexual misconduct                       2                                    1       2                                                   5
50 Sodomy                          1       1        1                                                                                       3
51 Theft of government                                                                                                          1           1
   property
52 Unauthorized disclosure of                                                                                         1                     1
   investigative activity
53 Unauthorized possession of                                                           1                                                   1
   AFOSI firearm
54 Unauthorized use of badge                                                                                1                               1
   and credentials
55 Unprofessional conduct                                                       1       1          1                  1         3           7
56 Unreported contacts with                1                                            1                                                   2
   foreign nationals
57 Use and possession of                                                                                                        1           1
   marijuana
58 Violation of academic                                                                                    1                               1
   integrity
59 Wrongful appropriation of                                                    1       1                                                   2
   credit cards and loans
              Total                3      26       19        9         2       46      76          9       31        10        24

      UIF (Unfavorable information file). An official record of unfavorable information about an individual. It documents administrative,
        judicial, or nonjudicial censures concerning the member's performance, responsibility, behavior, and so on.
      Probation. Some employees were placed on probation in conjunction with other discipline.
      Totals represent possible multiple outcomes for each Subject.




                                                                 42
Appendix H.                  Report Distribution

OFFICE OF THE SECRETARY OF DEFENSE
Under Secretary of Defense (Personnel and Readiness)
Assistant Secretary of Defense (Command, Control, Communications and Intelligence)
General Counsel, Department of Defense
Deputy General Counsel (Inspector General)
Director, Defense Criminal Investigative Service


DEPARTMENT OF THE ARMY
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Manpower and Reserve Affairs)
General Counsel, Department of the Army
Inspector General, Department of the Army
Auditor General, Department of the Army
Deputy Chief of Staff for Operations and Plans
Commander, Army Criminal Investigation Command


DEPARTMENT OF THE NAVY
Assistant Secretary of the Navy (Manpower & Reserve Affairs)
General Counsel, Department of the Navy
Inspector General, Department of the Navy
Director, Naval Criminal Investigative Service
Deputy Chief of Staff for Plans, Policies and Operations, Headquarters, U.S. Marine
Corps
Inspector General, U.S. Marine Corps


DEPARTMENT OF THE AIR FORCE
Assistant Secretary of the Air Force (Financial Management & Comptroller)
General Counsel, Department of the Air Force
Inspector General, Department of the Air Force
Commander, Air Force Office of Special Investigations
Director of Security Forces




                                           43
OTHER DEFENSE ORGANIZATIONS
Director, Defense Logistics Agency
General Counsel, Defense Logistics Agency
Director, National Security Agency
Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency


NON-DEFENSE FEDERAL ORGANIZATIONS
None


CONGRESSIONAL COMMITTEES AND SUBCOMMITTEES, CHAIRMAN AND
 RANKING MINORITY MEMBER
Chairman and ranking minority member of each of the following congressional
committees and subcommittees:

Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
 Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
 Committee on Government Reform




                                          44
Under Secretary of Defense (Personnel and Readiness) Comments




                 45
Department of the Army Comments




                                  46
     Department of the Army Comments




47
Department of the Army Comments




                                  48
     Department of the Navy Comments




49
Department of the Air Force Comments




                                       50
     Department of the Air Force Comments




51
Assistant Inspector General for Investigations Comments




                                            52
Assistant Inspector General for Investigations Comments




         53
Assistant Inspector General for Investigations Comments




                                            54
                       Evaluation Team Members
Deputy Assistant Inspector General for Criminal Investigative Policy and Oversight,
Office of the Assistant Inspector General for Investigations, Office of the Inspector
General, Department of Defense.


LTC Paul Nigara, Project Manager

Mr. David Oberholzer, Criminal Investigator

Ms. Phyllis Brown, Investigative Review Specialist

Ms. Terry Hammer, Program Analyst
